OIG Investigative Reports, Escaped Murderer Sentenced To 46 Months for Bank Fraud and Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney Southern District of New York FOR IMMEDIATE RELEASE September 29, 2008
Contact:   U.S. Attorney’s Office Yusill Scribner Rebekah Carmichael Janice Oh Public Information Office (212) 637-2600
Escaped Murderer Sentenced to 46 Months for Bank Fraud and Identity Theft
MICHAEL J. GARCIA, the United States Attorney for the Southern District of New York, announced that IVAN ORTA CUPRILL was sentenced earlier today by United States District Judge DEBORAH A. BATTS to 46 months in prison for stealing the identity of another person and applying for student loans using that person’s name and social security number. When he committed those crimes, from 1999 to 2002, CUPRILL was a wanted fugitive, having escaped from jail in Puerto Rico where he was serving a maximum 27-year sentence after having been convicted of murder and other crimes.
According to the Complaint and Indictment previously filed in Manhattan federal court, as well as court documents from Puerto Rico and statements on the record in this case:
Beginning in 1999, CUPRILL submitted applications for financial aid to attend the State University of New York at Old Westbury. In the applications, CUPRILL identified himself as “Jaime Torres”  and used the Social Security number belonging to a person with that name. The loans were approved and funds were paid by Citibank USA to the college on CUPRILL’s behalf. CUPRILL attended the school for over a year, but never repaid the loans.
At the time of his July 2006 arrest on these charges CUPRILL’s true identity was not known. However, agents from the Department of Education in New York and Puerto Rico identified the defendant as CUPRILL using fingerprints, and learned that since 1994 CUPRILL had been wanted for escape from prison while serving a 27-year sentence for murder and other crimes.
On May 14, 2007, CUPRILL pleaded guilty before Judge BATTS to bank fraud and identity theft. In addition to imposing the 46–month prison term, to run consecutively to CUPRILL’s other outstanding sentences, Judge BATTS sentenced CUPRILL to three years of supervised release and ordered him to make restitution to the New York State Higher Education Services Corporation in the amount of $4,000.
Mr. GARCIA praised the work of the Department of Education in this case.
Assistant United States Attorney JEFFREY A. BROWN is in charge of the prosecution.
Top
Printable view
Share this page
Last Modified: 10/01/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov